No.
INTHE

~upr.eme C!Iou:d of tq.e ~nit.eu ~tat.es
CACI PREMIER TECHNOLOGY, INC.,

Petitioner,

v.
SUHAIL NAJIM ABDULLAH AL SHIMARI; SALAH HAsAN

NUSAIF JASIM AL-EJAILI; AsA'AD HAMZA HANFOOSH
AL-ZUBA'E,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 15th day of November, 2019, I caus.ed three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version of the same to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.

Counsel for Respondents:
BaherAzmy

Katherine Gallagher

Peter A. Nels on

Matthew Funk
CENTER FOR CONSTITUTIONAL RIGHTS Jared S. Buszin
Jeffrey C. Skinner
666 Broadway, 7th Floor
New York, NY 10012
PATTERSON BELKNAP WEBB &
(212) 614-6464
TYLERLLP
bazmy@ccrjustice.org
1133 Avenue of the Americas
kgallagher@ccrjustice.org
New York, NY 10036
(212) 336-2000
pnelson@pbwt.com

Jeena Shah

CUNY SCHOOL OF LAW
2 Court Square
Long Island City, NY 11101
(718) 340-4208
jeena.shah@law.cuny.edu

Shereef Hadi Akeel

& VALENTINE, PLC
888 West Big Beaver Road
Suite 910
Troy, MI 48084
(248) 918-4542
shereef@akeelvalentine.com

AKEEL

Amir C. Tayrani

2

